            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION

     SUPPLEMENTAL SECURITY INCOME
             PAYMENTS TO
      MULTI-RECIPIENT HOUSEHOLDS


      August 2012   A-06-09-29149




 MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      August 7, 2012                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Management Advisory Report: Supplemental Security Income Payments to
           Multi-recipient Households (A-06-09-29149)


           OBJECTIVE
           Our objective was to identify and review Supplemental Security Income (SSI) payments
           to multi-recipient households.

           BACKGROUND
           SSI is a nation-wide Federal assistance program administered by the Social Security
           Administration (SSA) that guarantees a minimum level of income for needy aged, blind,
           or disabled individuals. 1 The program acts as a safety net for individuals who have
           limited resources and little or no other income. As a means-tested program of last
           resort, SSI is provided to eligible individuals only to the extent basic needs are not met
           by other sources. As an individual’s countable income 2 increases, his/her SSI payment
           amount decreases. The value of SSI payments issued to other members of a
           recipient’s household are not considered as an “other source” of income available to
           meet a recipient’s basic needs.

           Under the SSI program, each eligible individual living in his/her own household and
           having no other countable income is provided a maximum monthly Federal cash
           payment of $698. 3 SSA also administers supplemental payments provided by several


           1
               20 C.F.R. § 416.110.
           2
            SSA does not count a recipient’s first $20 in monthly unearned income or the first $65 in earned wages,
           plus one-half of earned amounts over $65.
           3
            SSA, POMS, SI 02001.020C.8 (10/31/2011). For Calendar Year 2012, the maximum amount payable to
           an eligible individual, also referred to as the Federal Benefit Rate (FBR), is $698. The FBR increases
           with the annual cost-of-living adjustments that apply to Social Security benefits. The FBR was
           unchanged at $674 from 2009 through 2011 because, under the automatic adjustment provisions of the
           Social Security Act, no cost-of-living adjustments were made in 2010 or 2011.
Page 2 - The Commissioner


States. When combined with State SSI payments, an SSI recipient’s monthly payment
can exceed $1,000. In addition, most SSI recipients are also eligible for Medicaid.

The cost of necessities for two people living together is generally less than if the same
people maintain separate households. The Department of Health and Human Services
incorporates these economies of scale into its annual Federal poverty guidelines, which
agencies use to determine eligibility for various government assistance programs. The
2011 Federal poverty guidelines indicate the poverty level for a 1-person household was
$10,890. However, the poverty level for a 2-person household was $14,710, and each
additional household member increased the poverty level by $3,820. 4 The FBR was not
designed to provide recipients with income equal to the Federal poverty level, although
it may raise their income above that threshold, sometimes substantially. 5

SSI payment computation rules partially incorporate the economies of scale rationale.
According to SSA economists,

      Program rules implicitly assume that substantial economies of scale in consumption
      arise from married couple recipients living in the same household. Therefore, couples
      are subject to a federal income guarantee equal to 150 percent of the FBR for
      individuals. However, no economies of scale are assumed to arise from nonmarried
      couple recipients sharing a household--each recipient (some of whom may be a
      member of a cohabitating couple) is guaranteed the full individual FBR. 6

We obtained data on approximately 7.5 million SSI recipients receiving payments as of
July 2011 whose SSA records indicated were not under the care of an organizational
representative payee. 7 We identified instances where SSA payment records indicated
two or more recipients lived at the same address. We provide additional information on
our scope and methodology in Appendix B.




4
 2011 Poverty Guidelines for the 48 Contiguous States and the District of Columbia, as published in the
Federal Register, Volume 76, Number 13, page 3,638 (January 20, 2011).
5
 Melissa Koenig and Kalman Rupp, SSI Recipients in Households and Families with Multiple Recipients:
Prevalence and Poverty Outcomes, as published in Social Security Bulletin, Volume 65, Number 2,
2003/2004, page 15.
6
    Ibid., at page 14.
7
  SSA can appoint social service agencies, institutions, government agencies, or financial organizations to
receive payments on behalf of individuals who are not capable of managing their funds. In some
instances (for example a nursing home), multiple, unrelated beneficiaries may reside at the payee’s
address. To avoid erroneously classifying such living arrangements as households, we removed all these
records from our audit population.
Page 3 - The Commissioner


RESULTS OF REVIEW
Our review of SSI payments to multi-recipient households indicated that, in contrast to
Federal poverty guidelines, SSI payment computation rules reduced payments only to
married couples and did not apply similar reductions to unmarried couples living
together or other multi-recipient living arrangements. Based on analysis of our audit
data, we estimate that application of economies of scale payment reductions only to
married couples allowed about 11,000 households with 4 or more SSI recipients to
receive approximately $63 million in annualized payments in excess of applicable
Federal poverty guidelines.

Our analysis did not consider the value of any Old-Age, Survivors or Disability
Insurance benefits SSA paid to qualifying household members; the value of any other
Federal, State, or local government benefits paid to household members; or the value of
any recipients’ earned income. Because our analysis narrowly focused on Federal SSI
amounts paid to recipients, the data presented should not be construed to represent the
extent of poverty in these households. According to SSA, previous reports that
considered other sources of income and all household members in a way that is
comparable with the official poverty measurement indicate that only a small minority of
SSI recipients in noncouple, multi-recipient households live in poverty.

PAYMENTS TO MULTI-RECIPIENT HOUSEHOLDS

Based on address matches that appeared on SSA payment records, 8 we estimate that
647,922 households 9 had 2 or more SSI recipients receiving payments in July 2011.
Because SSA payment records indicated that, in general, annual SSI payments to
two-and three-recipient households were at or below the Federal poverty guideline (see
Table 1), we performed no further analysis of these payments.

However, SSA payment records indicated that annual SSI payments to about
11,481 households with 4 or more recipients were above the established Federal
poverty guideline for comparable household sizes. SSA payment records indicated that
individuals in these 11,481 households received approximately $63 million in annual
SSI payments above established Federal poverty guidelines.




8
    See Appendix B for further explanation of our methodology.
9
    Included 1,375,985 recipients.
      Page 4 - The Commissioner

     Table 1. Multi-recipient Household SSI Payments Compared to Federal Poverty Guidelines
                              Based on SSI Payment Information as of July 2011
                                                                              Amount Annual        Estimated Total
                               Total        Annual                             Payments to       Annual Amounts Paid
              Number of      Number of    Payments to   Poverty Level for   Household Exceeded    Above the Poverty
Recipients   Households      Recipients   Household*    Household Size       Poverty Guideline        Guideline
     2         583,014      1,166,028       $10,438         $14,710              ($4,272)                    $0
     3          53,427        160,281       $18,567         $18,530                   $37            $1,952,757

    4             8,976        35,904      $26,897     $22,350              $4,547             $40,816,924
    5             1,774         8,870      $33,505     $26,170              $7,335             $13,011,900
    6               461         2,766      $40,503     $29,990            $10,513                $4,846,438
    7               172         1,204      $48,886     $33,810            $15,076                $2,593,136
    8                41           328      $52,892     $37,630            $15,262                  $625,728
    9                22           198      $52,116     $41,450            $10,666                  $234,655
  10                 15           150      $58,068     $45,270            $12,798                  $191,976
  11                  6             66     $56,927     $49,090              $7,837                  $47,021
  12                  2             24     $55,896     $52,910              $2,986                   $5,973
  13                  6             78     $73,521     $56,730            $16,791                  $100,745
                                                   10
  14                  4             56     $73,658     $60,550            $13,108                   $52,430
  15                  1             15     $70,097     $64,370              $5,727                   $5,727
  17                  1             17    $103,108     $72,010            $31,098                   $31,098
 Total          11,481         49,676                                                           $62,563,749**
     *Amounts exclude State supplemental payments and were calculated by multiplying the monthly SSI
     payments to each household member by 12 months, summing annualized payments per household, and
     dividing by the total number of households.
     **Does not add due to rounding.


      HOUSEHOLDS WITH FOUR OR MORE SSI RECIPIENTS

      We performed further analysis on households with four or more SSI recipients receiving
      payments as of July 2011 (see our methodology in Appendix B).

      Recipients’ Ages

      Our audit results indicated that recipients in four or more recipient households were
      generally younger than the overall recipient population. The median and average age
      of recipients living in these multi-recipient households was 26 and 34, respectively.
      While approximately 16 percent of all SSI recipients in the national population 11 is under
      age 18, more than 42 percent of recipients in these multi-recipient households was
      under age 18. Likewise, while approximately 25 percent of all SSI recipients in the
      population was age 65 or older, only 9 percent of recipients in these multi-recipient
      households was age 65 or older.


      10
        One 14 recipient household was a family that received $91,928 in annualized, Federal SSI payments.
      Including state supplemental payments, the family’s annualized SSI payments totaled $119,606.
      11
         Based on SSI recipient population as of December 2011, per SSI Monthly Statistics, 2011, Table 2,
      released January 2012, http://mwww.ba.ssa.gov/policy/docs/statcomps/ssi_monthly/2011/table02.pdf
      (last reviewed or modified on 07/16/2012).
Page 5 - The Commissioner


                       Table 2. Age of SSI Recipients in Four or More Recipient
                       Households Compared to National Recipient Population
                                        Number of                 National Average
                          Age           Recipients    Percent         (Percent)
                        Under 18         20,963          42.2             15.7
                         18 – 64         24,113          48.5             58.9
                         Over 64          4,601           9.3             25.4
                          Total          49,676*        100.0            100.0
                 * Does not add due to rounding.

Recipients’ Disability Diagnosis

Our audit results indicated that most recipients in four or more recipient households
were diagnosed with some form of mental impairment. 12 A majority of the recipients
was diagnosed with mental retardation, speech and language delays, affective/mood
disorders, or attention deficit/attention deficit hyperactivity disorders.

             Table 3. Primary Disability Diagnosis of Disabled SSI Recipients Living
              in Households with Four or More Individuals Receiving SSI Payments
     Diagnosis      Number of
        Code        Recipients       %                         Diagnosis Description
       3180          12,839         25.8    Mental Retardation
       3153           4,806          9.7    Speech and Language Delays
       2960           4,137          8.3    Affective/Mood Disorders
       3140           3,808          7.7    Attention Deficit/Attention Deficit Hyperactivity Disorder
     0000/0001        1,924          3.9    Unknown
       2950           1,458          2.9    Schizophrenic, Paranoid and Other Psychotic Disorders
       3152           1,433          2.9    Learning Disorder
       2940           1,418          2.9    Organic Mental Disorders (Chronic Brain Syndrome)
       7240           1,055          2.1    Disorders of Back (Discogenic and Degenerative)
       3195           1,006          2.0    Borderline Intellectual Functioning
       7150             831          1.7    Osteoarthrosis and Allied Disorders
       4930             805          1.6    Asthma
       2990             700          1.4    Autism and Other Pervasive Developmental Disorders
       3150             651          1.3    Development/Emotional Disorders of Newborns and Infants
       3000             618          1.2    Anxiety Disorder
       3138             613          1.2    Oppositional/Defiant Disorder
                                            Diagnosis Established—No Predetermined List Code of
       2480             541          1.1    Medical Nature Applicable
     All Other       11,032         22.2    Various
        Total        49,676*       100.0*
* Does not add due to rounding.




12
     Based on primary disability diagnosis code recorded in SSA payment records.
Page 6 - The Commissioner


Attention Deficit Disorders or Speech and Language Delays

Based on our audit results, we estimate that about 1,156 multi-recipient households
included 3 to 5 recipients receiving SSI payments based on attention deficit disorder or
speech and language delay diagnoses. In many cases, the recipients were children,
and SSA issued payments to a parent who served as the children’s representative
payees.

•    In Calendar Years 2004 through 2007, a couple was entitled to SSI payments as the
     result of diagnoses of borderline intellectual functioning and learning disorder. The
     couple filed SSI claims on behalf of their seven children who were ages 1 to 12 at
     the time of filing. SSA awarded payments to five children based on diagnoses of
     speech and language delays. SSA awarded payment to the other two children
     based on diagnoses of affective/mood disorders and mental retardation. SSA
     applied the marriage penalty to the couple and reduced their SSI payments by
     25 percent; however, each child received unreduced SSI payments. As of
     July 2011, SSA had issued the parents annual SSI payments totaling approximately
     $68,748. 13

•    In Calendar Years 1995 through 2004, a woman who had received SSI payments
     since 1992 as the result of a diagnosis of mental retardation filed SSI claims on
     behalf of seven of her children who were age 5 or younger at the time of filing. SSA
     awarded payments to four of the children based on diagnoses of either attention
     deficit disorder or speech and language delays. SSA awarded payments to the
     other three children based on diagnoses of borderline intellectual functioning, mental
     retardation, and asthma. As of July 2011, SSA issued the mother annual SSI
     payments totaling approximately $62,590. 14

•    In Calendar Years 2003 through 2009, a woman filed SSI claims on behalf of six
     children who were ages 2 to 6 at the time of filing. SSA awarded payments to five
     children based on diagnoses of speech and language delays. SSA awarded
     payments to the sixth child based on a diagnosis of hypoglycemia. SSA payment
     records indicate the mother, who received the SSI payments on behalf of all the



13
  According to SSA’s records, both parents were in prison in June 2011. During the parents’
incarceration, SSA appointed representative payees to manage the children’s payments. SSA records
indicate that as of April 2012, the parents were out of prison and receiving SSI payments. Six of the
seven children also remained in current payment status and SSA issued the children’s payments to their
assigned representative payees. SSA suspended the remaining child’s payments for “whereabouts
unknown.”
14
  SSA determined the mother was capable of managing her own benefits and also appointed her as the
representative payee for the children. As a result, SSA issues all payments to the mother. SSA
reassessed the condition of the oldest child (age 20) who had received SSI payments since 1995,
determined he was no longer disabled, and terminated his payments in October 2011. As of April 2012,
the mother and six other children continued to receive SSI payments.
Page 7 - The Commissioner


      children, was an illegal alien who did not have a Social Security number. As of
      April 2012, all six children remained in current payment status and SSA issued the
      mother annual SSI payments totaling approximately $50,256.

The SSI program does not establish limits on the number of claims or the total amount
of payments to members of the same household. As a result, all household members
can file disability claims, increasing the overall number of claims that SSA must
adjudicate.

CONSIDERATION OF PAYMENT LIMITS TO MULTI-RECIPIENT HOUSEHOLDS

SSA studied this issue, and Congress had considered imposing payment limits on
recipients in multi-recipient households several times since 1996. However, none of
these initiatives was implemented.

National Academy of Social Insurance and the Congressional Budget Office

A 1996 National Academy of Social Insurance report stated, “We believe that SSI
payments to families with more than one disabled child should be calibrated to
recognize economies of scale in shared living arrangements. There is currently no such
adjustment in the SSI benefit for children; each eligible child can receive up to the full
federal benefit of $458. The absence of a family maximum permits unduly large
benefits to be paid in those relatively rare cases of multi-beneficiary households.” 15 The
report recommended reducing payments to families with multiple child recipients using a
sliding scale. In 2003, the Congressional Budget Office updated a sliding scale for this
option and estimated that implementation would result in $1.345 billion in savings from
2005 through 2013. 16

House Ways and Means Committee

In 1998, the Subcommittee on Human Resources, House Committee on Ways and
Means, considered legislation that would have reduced payments for both multiple
unrelated recipients living together and multiple child beneficiaries. Under the proposal,
any two recipients living together would be eligible to receive 150 percent of the FBR
(as is currently the case for married couples); three recipients would receive 210
percent of the FBR; and four recipients would receive 260 percent of the FBR. Five or
more recipients living together would each receive 60 percent of the FBR. 17 The
proposal did not differentiate between common households or group home situations.


15
  National Academy of Social Insurance, Restructuring the SSI Disability Program for Children and
Adolescents, Report of the Committee on Childhood Disability of the Disability Policy Panel, 1996,
page 21.
16
     Budget Options, Congress of the United States, Congressional Budget Office, March 2003, page 171.
17
 Treatment of Married Couples in the SSI Program, Social Security Issue Paper 2003-01,
December 2003, page 7.
Page 8 - The Commissioner


As a result, disability advocates argued against the loss of benefits to mentally disabled
individuals in group homes or assisted living situations, and the proposal was not
submitted to the full Committee.

SSA Office of Policy

In 2002, economists in SSA’s Office of Policy simulated the effect of providing each
recipient in a multi-recipient household with a payment amount equal to 75 percent of
the FBR, less countable income. 18 The analysis was based on the 1996 panel of the
Survey of Income and Program Participation (SIPP) data 19 matched to SSA
administrative records. The economists designed the study to provide a reasonable
basis for projecting the estimated effects on the total number of SSI recipients and on
aggregate payments at a later point in time. According to SSA, the results of this study
indicated the number of SSI recipients who lived in households with at least one other
SSI recipient was substantially higher than earlier estimates, which were based on a
review of SSA’s administrative records alone. 20

The SSA economists who performed the analysis estimated “. . . that overall, the
simulated policy change is expected to reduce the number of recipients in the U.S.
noninstitutional SSI population by 2.2 percent. The corresponding reduction in
aggregate benefits is 6.3 percent. Assuming no grandfathering of any kind and swift
implementation, it is notable that these changes would take place essentially
instantaneously.” 21 Application of this estimate to the $48.3 billion in Federal SSI
payments issued during Calendar Year 2011 22 indicates expansion of payment
reductions currently applied only to married couples would have reduced SSI outlays by
approximately $3 billion.


18
   Melissa Koenig and Kalman Rupp, The Poverty Status of Different Types of Multirecipient Households:
Is SSI Fair to Married Couples? May 2002, page 17. The authors, both economists in SSA’s Office of
Policy, prepared the paper for presentation at the Annual Meeting of the Population Association of
America, Atlanta, GA, May 2002. The paper expressed the authors’ views and do not necessarily
represent the views of SSA or any other Federal agency. We are not aware of any subsequent effort by
SSA to disaffirm or contradict the author’s estimates and note that subsequent official SSA publications
have cited the estimates contained in this paper.
19
   The Census Bureau developed and instituted the SIPP to gather detailed information on participation in
transfer programs. The SIPP collects information on family characteristics, such as size, composition,
income, and education of household members. According to SSA, the Supplemental Security Record
contains highly accurate information on the receipt and amount of SSI benefits, but lacks comprehensive
information on household relationships. In contrast, the SIPP provides highly accurate information on
household and family composition.
20
  SSA Policy Brief Number 2004-03, How Many SSI Recipients Live with Other Recipients, June 2004,
page 1.
21
     Ibid., 20 at page 18.
22
  SSI Monthly Statistics, 2011, Table 6, released January 2012. During 2011, SSA also distributed an
additional $3.7 billion in State supplemental payments to SSI recipients.
Page 9 - The Commissioner


CONCLUSION AND RECOMMENDATION
The Government recognizes that the cost of necessities for two people living together is
less than if they maintain separate households, and it incorporates these economies of
scale into Federal poverty guidelines. In partial recognition of these economies of
scale, the SSI program reduces payments to married couples. However, the SSI
program does not apply comparable reductions to SSI payments issued to unmarried
couples living together or to other multi-recipient living arrangements. As a result, our
estimates indicate the program allows approximately 50,000 recipients living in
households with at least 3 other recipients to receive about $63 million in annual tax-
free cash payments in excess of established Federal poverty guidelines. Other
estimates indicate that broader application of multi-recipient household payment
reductions that currently only affect married couples could reduce Federal outlays by
much larger amounts.

Between 1996 and 2005, Congress considered applying reductions already in effect for
married couples to other multi-recipient living arrangements. However, to date, none of
the initiatives has been implemented. In February 2010, the President established the
National Commission on Fiscal Responsibility and Reform. 23 The Commission’s final
report stated, “Our nation is on an unsustainable fiscal path”24 and called for cuts in
excess entitlement spending to help ensure “. . . a robust, affordable, fair, and
sustainable safety net.” 25

Expanding payment limits currently applied only to married couples to other multi-
recipient households could reduce SSI outlays while simultaneously helping to ensure a
robust, affordable, fair and sustainable safety net. As a result, we recommend that SSA
consider the viability of a legislative proposal to extend payment limits in effect only for
married couples to other multi-recipient households.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed to continue working with Congress and the Administration to develop and
support legislation that strikes the appropriate balance between fiscal and policy
considerations. SSA provided additional technical comments, which we incorporated as
we considered appropriate.




23
     Executive Order 13531, National Commission on Fiscal Responsibility and Reform, February 18, 2010.
24
  The Moment of Truth, Report of the National Commission on Fiscal Responsibility and Reform,
December 2010, page 10.
25
     Ibid., at page 12.
Page 10 - The Commissioner


SSA also stated that the section of the report discussing recipients’ medical basis for
receiving SSI payments was not relevant, and requested we remove the content from
the report. SSA further stated the cases highlighted on page 6 were non-representative
of 3 to 5 recipient households and distracted from the main policy issue. See
Appendix C for the text of SSA comments.

We disagree with SSA regarding the relevance of the analysis and the examples
provided in the report and are encouraged that SSA agreed to continue to work with
Congress and the Administration to develop and support pertinent legislation.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
FBR      Federal Benefit Rate
POMS     Program Operations Manual System
SIPP     Survey of Income and Program Participation
SSA      Social Security Administration
SSI      Supplemental Security Income
                                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed various Social Security Administration (SSA) publications that addressed
    the topic of multiple recipient households.

•   Obtained data from SSA’s Supplemental Security Record identifying
    7,451,885 Supplemental Security Income (SSI) recipients receiving payments as of
    July 2011, excluding all recipients whose payment record indicated they lived in a
    nursing home or contained any of the following types of payees. 1

       Federal nonmental institution
       Federal mental institution
       State/local nonmental institution
       State/local mental institution
       Proprietary nonmental institution
       Propriety mental institution
       Nonprofit nonmental institution
       Nonprofit mental institution
       Financial Organization
       Social Agency
       Public Official

•   Identified exact address matches2 appearing on 7,451,885 payment records and
    identified 1,601,103 SSI recipients whose address matched at least 1 other
    recipient. This comparison identified 3,678 households where 8 or more SSI
    recipients appeared to reside in the same household.




1
 Per SSA, POMS, GN 00501.013 (03/10/2011) and SSA, POMS, SM 01601.565 (04/05/2010), these
codes indicate the recipients’ payments are sent to institutional (for example, Federal, State, local, or
nonprofit institution) or organizational (for example, financial organization, social service agency, or agent
of State of other governmental entity) representative payees.
2
  We identified multi-recipient households based on exact address matches appearing in SSA’s payment
records. For example, three recipients could live together at 1301 Elm Street. However, SSA payment
records could reflect that one recipient lived at “1301 Elm Street,” one at “1301 Elm St” and one at
“1301 Elm St.” This theoretical household would not have been included in our review. As a result, our
audit results likely understate the actual number of multi-recipient households.


                                                    B-1
   •       Reviewed all 3,678 instances where 8 or more recipients appeared to reside at the
           same address and determined that 98 of the 3,678 instances appeared to be actual
           household situations. We excluded the other 3,580 instances because our review
           indicated they did not appear to be actual household situations. For example, we
           verified that listed addresses were group homes, nursing homes, or boarding houses
           or that recipients lived in separate housing units at the same street address.

                      Table B-1. All Instances Where Eight or More Recipients in
                          Audit Data Appeared to Reside at Same Household
                        Recipients at       Number of Households     Number of Households
                       Same Address        BEFORE Detailed Review    AFTER Detailed Review
                              8                      790                         41
                              9                      513                         22
                             10                      386                         15
                             11                      348                          6
                             12                      235                          2
                             13                      198                          6
                             14                      158                          4
                             15                      137                          1
                             16                      108                          0
                             17                       80                          1
                             18+                     725                          0
                                                   3,678                         98

   •       We identified the SSI payment amount, the age and primary disability code of all
           recipients in eight or more person households.

   •       Reviewed 250 randomly selected two to seven recipient households from our audit
           population and identified the instances that appeared to be household situations.
           We applied our sample results to estimate the number of two to seven recipient
           households in the audit population.

                      Table B-2. Estimate of Two to Seven Recipient Households
                    Number of                       Number of
Recipients at      Households       Number of      Households        Percent Applied
   Same          BEFORE Sample     Households    After 250 Sample   Based on Sample    Household    Recipient
  Address            Review          Sampled          Review             Review         Estimate    Estimate
       2           625,551           250               233               93.2          583,014     1,166,028
       3            66,451           250               201               80.4           53,427       160,281
       4            13,600           250               165               66.0            8,976        35,904
       5             4,185           250               106               42.4            1,774         8,870
       6             1,891           250                61               24.4              461         2,766
       7             1,130           250                38               15.2              172         1,204
                                   1,500               804                             647,824     1,375,053




                                                        B-2
•   Performed further review/analysis of SSA records for 2,754 recipients living in 4 to
    17 recipient households.

                         Table B-3. 4 to 17 Recipient Households
                   Recipients at                               Number of
                  Same Address      Households Reviewed        Recipients
                          4                 165                    660
                          5                 106                    530
                          6                  61                    366
                          7                  38                    266
                          8                  41                    328
                          9                  22                    198
                        10                   15                    150
                        11                    6                     66
                        12                    2                     24
                        13                    6                     78
                        14                    4                     56
                        15                    1                     15
                        17                    1                     17
                                            468                  2,754

•   We applied our sample results for the payment amount, the age and primary
    disability code of recipients in four to seven recipient households to estimate similar
    characteristics in the audit population.

We tested the data obtained for our audit and determined them to be sufficiently reliable
to meet our objective. The entity reviewed was the Office of Income Security Programs
under the Office of the Deputy Commissioner for Retirement and Disability Policy. We
performed our review from December 2010 through April 2012 in Dallas, Texas. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.




                                            B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      July 6, 2012                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft, “Management Advisory Report: Supplemental Security
           Income Payments to Multi-Recipient Households” (A-06-09-29149)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT
“MANAGEMENT ADVISORY REPORT: SUPPLEMENTAL SECURITY INCOME
PAYMENTS TO MULTI-RECIPIENT HOUSEHOLDS” (A-06-09-29149)


RESPONSE TO RECOMMENDATION

Recommendation

Consider the viability of a legislative proposal to extend payment limits currently in effect only
for married couples to other multi-recipient households.

Response

We will continue to work with Congress and the Administration to develop and support
legislation that strikes the appropriate balance between fiscal and policy considerations.

TECHNICAL COMMENTS

Page 5, Table 3 – Primary Disability Diagnosis of Disabled SSI Recipients Living in
Households with Four or More Individuals Receiving SSI Payments; Page 6, Attention
Deficit Disorders or Speech and Language Delays, Cases

Comment

We strongly recommend removing the content on pages 5 and 6 of the report discussing the
medical basis for receiving SSI disability payments, as it has no bearing on or relevance to the
review of SSI payments to multi-recipient households. Considerations for limiting SSI payments
to multi-recipient households are strictly fiscal in nature and bear no connection to the recipients’
physical or mental disorders.

Furthermore, the 3 cases highlighted on page 6 are non-representative of the small group of
1,156 multi-recipient households with 3 to 5 recipients, and distract from the main policy issue—
the economies of scale considerations when calculating benefit amounts.




                                               C-2
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Wanda Renteria, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-06-09-29149.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
